U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 28, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Brown v. United States, No. 20-5064
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 6, 2020.
The government’s response is now due, after one extension, on October 21, 2020. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
December 4, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5064
BROWN, TONY
USA

JOHN C. LEMON
LAW OFFICES OF JOHN C. LEMON, APC
1350 COLUMBIA STREET
STE. 600
SAN DIEGO, CA 92101
619-794-0423
JOHN@JCL-LAWOFFICE.COM

